Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 BENEFICIARY AWARENESS OF 

      MEDICARE FRAUD 





                   JUNE GIBBS BROWN
                    Inspector General

                      JANUARY 1998
                      OEI-12-97-00440
                         OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.


                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of 

Inspector General. It conducts short-term management and program evaluations (called 

inspections) that focus on issues of concern to the Department, the Congress, and the public. The 

inspection reports provide findings and recommendations    on the efficiency, vulnerability, and 

effectiveness of departmental programs. 


OEI’s Headquarters Office prepared this report under the direction of Debra Robinson, Director 

of Policy Oversight Division, and with the assistance of staff from all Regional Offices and 

Headquarters Divisions. Principal OEI staff included: 


Susan Burbach, Project Leader 

Robert Gibbons 

Mark Krushat 

Andrew McLaughlin 

Adrienne Corpuz 





         To obtain copies of this report, please call OEI Headquarters at (202) 619-0480.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
BENEFICIARY AWARENESS OF 

     MEDICARE FRAUD 





            JUNE GIBBS BROWN
             Inspector General

               JANUARY 1998
               OEI-12-97-00440
PURPOSE

To assess Medicare beneficiaries current knowledge and awareness of Medicare fraud and to
gather information to assist in planning the outreach campaign advertising the Office of Inspector
General (OIG) fraud hotline.

BACKGROUND

In 1996, the OIG launched a new initiative called “Outreach.” The primary goal of the outreach
initiative is to combat Medicare fraud, waste, and abuse. The initiative involves three primary
activities. The first activity was to create a more user-friendly OIG fraud hotline which was
implemented in July 1997. The second major activity is to conduct a nationwide outreach
campaign to educate beneficiaries and other citizens on Medicare fraud-what        it is, how to
recognize it, and where to report it. Third, we have developed partnerships with other agencies
and organizations also involved in fighting Medicare fraud-the      Health Care Financing
Administration (HCFA), the Administration on Aging (AoA), and the American Association of
Retired Persons (AARP).

AoA and AARP have related activities as part of the outreach campaign. AoA has received
funding for two separate grant programs designed as health care anti-fraud outreach programs for
older Americans. AARP plans to craft a education campaign to engage its members in the fight
against health care fraud.

To gather data for this study, we conducted   a telephone survey with 329 Medicare beneficiaries
out of a simple random sample of 625.

FINDINGS

Knowledge about Fraud

More than half of beneficiaries believe that Medicare fraud is common.       Fifty-three percent of
Medicare beneficiaries agree that Medicare fraud is common.

Beneficiaries want to play a role in stopping Medicare fraud. Medicare beneficiaries
overwhelmingly agree (94 percent) with the statement, “It is my personal responsibility   to report
suspected cases of Medicare fraud.”

Most beneficiaries say they read their Explanation of Medicare Benefits. Almost three out of
four Medicare beneficiaries (74 percent) say they “always” read their Explanation of Medicare
Benefits statements (EOMBs).



                                                  1
However, most Medicare beneficiaries believe that recognizing fraud is difficult. Almost six
out of ten beneficiaries (58 percent) disagree with the statement “Medicare fraud is easy to
recognize” and an additional 19 percent “don’t know” if Medicare fraud is easy to recognize.

Further, most beneficiaries say they have not received information on Medicare fraud. Only
15 percent of beneficiaries say that they have received or looked for information on Medicare
fraud.

Finally, beneficiaries are not aware of agencies working to reduce Medicare fraud. Eighty-
eight percent of beneficiaries say they are not aware of any agencies that work to reduce
Medicare fraud.

Encountering and Reporting Potential Fraud

Almost one in five beneficiaries say they have encountered potential Medicare fraud.
Beneficiaries who were both educated beyond high school and report that they were in fair or
poor health were much more likely to have stated that they encountered fraud than all other
beneficiaries.

Beneficiaries say they would report suspected Medicare fraud, but many do not when actually
faced with a potentially fraudulent situation. Eighty-five percent of beneficiaries say that they
 would not be reluctant to report Medicare fraud. However, of those surveyed beneficiaries who
 said they have encountered potential fraud, only 55 percent reported it.

Most beneficiaries are not aware there is a toll-free number to report Medicare fraud.
Eighty-six percent of beneficiaries do not know there is a toll-free hotline to report Medicare
fraud. Almost one-third (29 percent) say they do not know whom they would contact if they
encountered potential Medicare fraud.

If beneficiaries knew more, they would be more likely to report potential fraud. Almost nine
out of 10 beneficiaries (89 percent) agree that if they knew more about Medicare fraud, they
would be more likely to report it.

Reaching Medicare Beneficiaries through Outreach

Magazine readership is high among beneficiaries. Seventy-two percent of beneficiaries say
they read magazines regularly. Over one-third read Modern Maturity, AARP’s magazine,
regularly.

A large majority of beneficiaries regularly receive news through mainstream media. Three
out of four beneficiaries say they regularly read the newspaper. Eighty percent of beneficiaries
say they regularly watch national news on television and 77 percent regularly watch local news.
This confirms the possibility of using the mainstream media for the outreach campaign.


                                                 ii
Many beneficiaries watch cable television channels for news and entertainment.       Nearly two-
thirds (62 percent) of beneficiaries say they watch at least one cable channel.

NEXT STEPS

We conducted this survey to prepare for our outreach campaign to educate beneficiaries on 

Medicare fraud and where to report it. We collected baseline data on Medicare beneficiaries’ 

current awareness of Medicare fraud and data on the media preferences of beneficiaries. 


The survey confirms the need for a campaign to educate beneficiaries. Beneficiaries appear to be 

on the right track with a large majority saying they already “always” read their EOMBs. Because 

of the information provided on the EOMB, reviewing EOMB statements is the best way to detect 

billing errors and potential fraud. However, the survey results suggest that beneficiaries may not 

know what to look for on their EOMBs. AARF’ and AoA have ongoing activities to address this. 

AARP is developing materials to educate beneficiaries about how to spot irregularities on their 

EOMBs. AoA has funded projects to educate beneficiaries how to read their EOMBs. The 

survey also found that few beneficiaries know of the existence of a toll-free Medicare fraud 

hotline number. To address this, we are working with HCFA to begin printing the phone number 

for the OIG fraud hotline on EOMBs along with a message encouraging beneficiaries to report 

suspected fraud and abuse. 


As we prepare for the launch of the outreach campaign activities, the outreach partners (OIG, 

AoA, HCFA, and AARP) should keep in mind where beneficiaries receive information. We 

found that more than half of beneficiaries read AARP’s magazine, Modern Maturity, regularly or 

sometimes. This makes Modern Maturity an ideal publication in which to print stories and 

information about Medicare fraud. Further, because the mainstream media has a large following, 

newspapers and national and local news programs may be effective avenues for certain 

components of the campaign. Cable television, while not quite as popular as the mainstream 

media, may also effectively reach beneficiaries and other citizens. AARF’ is developing public 

service announcements for broadcast media. 


We plan to repeat this survey after the outreach campaign has been underway for a year or two. 

This will enable us to measure the effect the outreach activities have had on Medicare 

beneficiaries  awareness of Medicare fraud. 





                                                 ...
                                                111
                                                                                                                                          PAGE
EXECUTIVE      SUMMARY

INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l

FINDINGS    ..............................................................                                                                   . . .   4

NEXT STEPS        ...........................................................                                                                . . 10

ENDNOTES        ............................................................                                                                 . . 11

APPENDICES        ...........................................................                                                                ....

     A. Telephone            survey instrument                  .......................................                                       A-l

     B. Baseline statistics                 ................................................                                                 . B-l

     C. Confidence             intervals for selected statistics                         ............................                        . C-l

     D. Respondent              and non-respondent                   analysis          .............................                          D-l
                             INTRODUCTION

PURPOSE

To assess Medicare beneficiaries’ current knowledge and awareness of Medicare fraud and to
gather information to assist in planning the outreach campaign advertising the Office of Inspector
General (OIG) fraud hotline.

BACKGROUND

Consumer Awareness of Health Care Fraud

Evidence suggests that although consumers believe that health care fraud is rampant, they do not
know how they can assist in combating it. In late 1996, the American Association of Retired
Persons (AARP) conducted a survey on consumer awareness of general health care fraud and
abuse. Overall, the survey found that consumers believe that health care fraud is widespread, and
18 percent said that they had personally experienced health care fraud. Consumers also believe
that fraud in Government health care programs (Medicare and Medicaid) is more widespread
than in the private sector. Almost 80 percent of consumers are not aware of any efforts to reduce
health care fraud. However, the vast majority of survey respondents (85 percent) indicate that
they would be inclined to report suspected fraud if they knew more about it.

Office of Inspector General Outreach Initiative

In 1996, the OIG launched a new initiative called “Outreach.” The primary goal of the outreach 

initiative is to combat Medicare fraud, waste, and abuse. Our first activity was to create a more 

user-friendly OIG fraud hotline (the toll-free number that people can call to report suspected 

fraud of the programs of the Department of Health and Human Services). This involved 

developing a simple menu system and having most callers connect with a person, rather than a 

recording. We implemented the improved hotline in July 1997. 


Next, we plan to conduct a nationwide outreach campaign to educate beneficiaries and other 

citizens on Medicare fraud-what      it is, how to recognize it, and where to report it. The 

campaign will promote the OIG hotline and educate consumers about its appropriate use. As a 

first step, we developed partnerships with other agencies and organizations also involved in 

fighting Medicare fraud-the    Health Care Financing Administration (HCFA), the Administration 

on Aging (AoA), and AARP. Through the assistance of a marketing firm and a number of focus 

groups, we are designing the campaign and developing a variety of campaign materials, 

including a logo, poster, brochure, fact sheet, article series, Rolodex card, and public service 

announcements for print media. 





                                                  1

AoA and AARP have related activities as part of the outreach campaign. AoA has received
funding for two separate grant programs. Both are designed as health care anti-fraud outreach
programs for older Americans. First, the Omnibus Consolidation Appropriations Act of 1997
(P.L. 104-209) established demonstration grants to train retired professionals to teach their peers
how to read and interpret their Explanation of Medicare Benefits (EOMBs) statements in order to
identify Medicare fraud, waste, and abuse. Twelve grants, referred to as “Harkin grants” because
the legislation was offered by Senator Harkin of Iowa, were awarded by AoA in June 1997.
Second, under the Health Insurance Portability and Accountability Act (HIPAA), AoA has
funded anti-fraud and abuse grants to 15 State agencies on aging. In addition to funding outreach
training for aging network staff, these “HIPAA grants” provide for public awareness campaigns.

AARP plans to craft an education campaign to engage its members in the tight against health
care fraud. AARP will develop a brochure on health care fraud and the importance of reading
Medicare claims statements. AARP will also develop a basic training kit to train volunteers how
to teach Medicare beneficiaries about fraud and reading Medicare claims statements. Further,
AARP will develop fact sheets about medical areas particularly vulnerable to fraud, such as
home health, laboratories, nursing homes, and durable medical equipment. Finally, AARP plans
to develop public service announcements for print and broadcast media.

We undertook this study to gather baseline data on Medicare beneficiaries prior to the launch of
the various outreach activities. We will repeat this study in l-2 years. This will enable us to
measure the effect the outreach activities have had on beneficiaries’ awareness of Medicare
fraud.

METHODOLOGY

We conducted a telephone survey of Medicare beneficiaries. Specifically, we selected a simple
random sample of 625 Medicare beneficiaries from HCFA’s national claims history file. Of the
625 beneficiaries, we were able to find phone numbers for 467. The sampled beneficiaries had at
least one claim submitted to a Medicare Part B carrier during 1996. We excluded beneficiaries
currently enrolled in Medicare managed care, beneficiaries enrolled in managed care at some
point during 1996, and deceased beneficiaries. We sent personalized letters to each of the 467
Medicare beneficiaries approximately 1 week before we fielded the survey.

We conducted interviews with 329 of the 625 beneficiaries or their proxy for a response rate of
53 percent. Of the 329 interviews, 48 (15 percent) were conducted with a proxy who answered
the survey on behalf of the beneficiary when the beneficiary was unable to participate due to
illness, cognitive impairment, or a disability that prevented participation. We asked that the
proxy respondent be the person who handles the beneficiary’s medical business. Most
commonly, proxies were a spouse (48 percent), a child (19 percent), or another family member
(25 percent). In the report, when presenting data about “beneficiaries,” we are referring to
beneficiaries and proxies. Appendix D presents an analysis of respondents and non-respondents.




                                                 2

We conducted this inspection in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                              3

KNOWLEDGE         OF FRAUD

More than half of beneficiaries believe that Medicare fraud is common.

Our survey results showed 53 percent of sampled Medicare beneficiaries agree that Medicare
fraud is common. Of those, 39 percent “strongly agree” and 14 percent “slightly agree.”
Fourteen percent disagree that fraud is common. Interestingly, almost one-third (32 percent)
“don’t know” if fraud is common.

Beneficiaries want to play a role in stopping Medicare fraud.

While Medicare beneficiaries believe that Medicare fraud is common, they also believe that they
have a part to play in stopping it. Medicare beneficiaries overwhelmingly agree (94 percent)
with the statement, “It is my personal responsibility to report suspected cases of Medicare fraud.”
Further, beneficiaries believe it is worth their while to combat fraud. Just 17 percent of
beneficiaries agreed with the statement “It’s not worth the time and effort for me to report and
pursue suspected health care fraud.” Finally, 85 percent of beneficiaries said they would not be
reluctant to report suspected fraud.

Most beneficiaries say they read their Explanation of Medicare Benefits statements
(EOMBs).

Almost three out of four Medicare beneficiaries (74 percent) say they “always” read their
EOMBs. Some beneficiaries (44 percent) also get help reading their EOMBs, most commonly
from a spouse or a child. Only 11 percent of beneficiaries say they “hardly ever” or “never” read
their EOMB s. ’

Further, a relationship exists between reading EOMBs regularly and having knowledge about
fraud. We define those having knowledge of fraud as beneficiaries who say they have either
received information or asked about or looked for information on Medicare fraud.2 We found
that 28 percent of beneficiaries who “always” read their EOMBs are knowledgeable about
Medicare fraud compared to only 16 percent of beneficiaries who “sometimes” read their
EOMBs and only 3 percent of those who “hardly ever” or “never” read their EOMBs. Possibly,
the relationship occurs because beneficiaries who are already knowledgeable about fraud know
the importance of reading their EOMBs rather than that the beneficiaries become knowledgeable
about fraud because they read their EOMBs.




                                                 4

However, most Medicare beneficiaries believe that recognizing fraud is difficult.

The first step to detecting fraud is reviewing one’s EOMB statements. Yet, beneficiaries may
not know what they should keep an eye out for. Many do not know how to recognize Medicare
fraud. Almost six out of ten beneficiaries (58 percent) disagree with the statement “Medicare
fraud is easy to recognize” and an additional 19 percent “don’t know” if Medicare fraud is easy
to recognize.

Further, most beneficiaries say they have not received information on Medicare fraud.

Only 15 percent of beneficiaries say they have received or looked for information on Medicare
fraud.3 Of those who received information, 3 1 percent say they received information from
Medicare in some way, such as the Medicare handbook, EOMBs, or from Medicare carriers that
process Medicare claims.


                                                                              Table I:
       Beneficiaries                receive information                      on Medicare fraud from a variety of sources4

 Source of Information 	                                                                        ;Percent of Beneficiaries Receiving
                                                                                                i Information from Source (of those who
                                                                                                i received information)

 Medicare                                                                                                                           31%

                                                                                                                                           21%
 ............._.....................................................................................<...................................................................................
 Newspaper or magazines                                                                                                                    19%
 ...................................................................................................<...................................................................................
 Television or radio                                                                                                                       13%

 Other source                                                                                                                       27%


Finally, beneficiaries are not aware of agencies working to reduce Medicare fraud.

Beneficiaries may not think to look for Medicare fraud not only because they do not know what
to look for, but also because they are not aware that government agencies are interested in
stopping Medicare fraud. Eighty-eight percent of beneficiaries say they are not aware of any
agencies that work to reduce Medicare fraud. This finding closely mirrors the AAFW survey
that found 79 percent of consumers were not aware of any efforts to reduce health care fraud.




                                                                                               5

ENCOUNTERING           AND REPORTING POTENTIAL FRAUD

Almost one in five beneficiaries say they have encountered potential Medicare fraud while
they have been in the Medicare program.

In our survey of Medicare beneficiaries, 19 percent of respondents report that they have
encountered potential Medicare fraud. 5 Ten percent of beneficiaries have encountered a doctor or
other health care provider that billed Medicare for services or equipment they did not receive.
Seven percent have encountered a doctor or other health care provider that billed Medicare for
the same services or equipment more than once.

We analyzed a number of variables to determine which beneficiaries are more likely to encounter
fraud, including income level, age, marital status, education level, and self-reported health status.
Two factors appear to predict if a beneficiary will encounter fraud-education      level and self-
reported health status. Beneficiaries were asked to rate their health as either excellent
(21 percent), good (36 percent), fair (31 percent), or poor (11 percent). As shown in Table 2
below, beneficiaries who were both educated beyond high school and in fair or poor health were
much more likely to reported encountering fraud than all other beneficiaries. This probably does
not suggest that having a higher educational level leads a person to be a “target” for Medicare
fraud. Rather, this could suggest that having a higher educational level may cause a person to be
more knowledgeable about potential fraud and abuse situations.


                                          Table 2: 

                          Education and self-reported health status 

           affect whether a beneficiary has encountered potential Medicare fraud 


        Education Level                                                                      Percent 	 Reporting Encountering
                                                                                                       Potential Fraud

 Beyond High School
                                 ......... . .............................. ........ .....


 High School or Less




Beneficiaries say they would report suspected Medicare fraud, but many do not when
actually faced with a potentially fraudulent situation.

Eighty-five percent of beneficiaries say that they would not be reluctant to report Medicare fraud. 

However, of those beneficiaries who said they have encountered potential fraud, only 

55 percent reported it. 





                                                                  6

Most benefidiaries are not aware there is a toll-free number to report Medicare fraud.

Eighty-six percent of beneficiaries do not know there is a toll-free hotline to report Medicare
fraud. We asked beneficiaries whom they would contact if they encountered Medicare fraud.
Almost one-third (29 percent) say they do not know whom to contact. Likewise, if an EOMB
showed that Medicare had paid for services or products the beneficiary did not receive, 21
percent of beneficiaries do not know whom to contact.

Beneficiaries have different ideas about where to report potential fraud or problems with their
EOMBs. Table 3 shows where beneficiaries say they would report fraud or billing errors.
Interestingly, a significantly higher percentage of beneficiaries with suspected errors on their
EOMBs (26 percent) would contact their health care provider as opposed to those who believe
they have encountered actual fraud (9 percent). This could suggest that beneficiaries are more
comfortable checking out billing errors with their physician, rather than accusing their physician
of fraud. It could also suggest that beneficiaries do not understand that apparent billing errors on
EOMBs could potentially be a fraud or abuse situation.


                                                             Table 3:
                                        Beneficiaries would contact a variety of sources
                                      if they suspected fraud or noticed errors on EOMB

 Whom beneficiary would                                   i If beneficiary encountered                              / Ifbeneficiary’s EOMB
 con tact                                                 i health care fraud (q. 23)                               :showed that Medicare had
                                                                                                                    ipaid for services or products
                                                                                                                    :not received (q. 34)
                                         -                                                                --
 Medicare/HCFA                                                                               27%                                                              28% 

 ...............................................................~.................................................................~............................................................... 

 Doctor or hospital who                                         i                             9%                                                              26% 

 committed the fraud/billed                                     i

 for services or products                                       :
 .............._.._.............................................<.................................................................$...............................................................
                                                                           
                                                                                                                       

 Insurance company that                                         i                            10%                                                               12% 

 processes Medicare claims                                      :

 ,..............................................................

                                                                i.................................................................4...............................................................
 Social Security office                                                                       11%                                                               6%
 ,..............................................................;.................................................................f...............................................................
                                                                           

 Don’t know                                                                                  29%                                                              21% 



Of those beneficiaries who had reported a potential fraud, 46 percent reported it to the doctor or
hospital that committed the potential fraud. Thirty-three percent of beneficiaries reported the
potential fraud to Medicare and 21 percent reported it to their insurance company.




                                                                                         7

If beneficiaries knew more, they would be more likely to report potential fraud.

Almost nine out of 10 beneficiaries (89 percent) agree that if they knew more about Medicare
fraud, they would be more likely to report it.

REACHING MEDICARE BENEFICIARIES THROUGH OUTREACH

To look at the bigger picture, beneficiaries want to play a role in stopping Medicare fraud and
have taken the first step by reading their EOMBs, but they are not sure how to recognize fraud
and where to report it. Therefore, designing an education campaign to reach them is a natural
step. When designing outreach campaign activities to educate beneficiaries and other citizens
about recognizing and reporting Medicare fraud, it is important to understand from where they
receive information. This understanding can assist in preparing the campaign to reach as many
people as effectively as possible.

Magazine readership is high among beneficiaries.

Seventy-two percent of beneficiaries say they read magazines regularly. We asked respondents
to identify which magazines they read, and then we categorized the magazines into 12 types of
magazines (e.g., news, women’s). Entertainment and general interest magazines are the most
popular among respondents with 40 percent saying they read a magazine in that category. News
magazines and women’s magazines are also popular with approximately one-quarter of
beneficiaries. The chart on the following page shows the most commonly read categories of
magazines.


                 Category of             Percent reading
                 magazine                “regularly”

                 Entertainment/                  40%
                 general interest

                 News                            25%

                 Women’s                         23%

                 Hobbies/crafts/sports           17%

                 Homes & gardens                 16%

We specifically asked how often beneficiaries read Modern Maturity, AAFCP’s magazine. More
than half say they read it; 36 percent say “regularly” and 19 percent “sometimes.” Additionally,
30 percent of beneficiaries read M’s       The Bulletin “regularly” and 15 percent “sometimes.”




                                                8

A large majority of beneficiaries regularly receive news through mainstream media.

Beneficiaries regularly read the newspaper and watch national and local news. Three out of four
beneficiaries say they regularly read the newspaper. Eighty percent of beneficiaries say they
regularly watch national news on television and 77 percent regularly watch local news. This
confirms the desirability of using the mainstream media, where possible, for the outreach
campaign.

Many beneficiaries watch cable television channels for news and entertainment.

Almost two-thirds (62 percent) of beneficiaries say they regularly watch at least one cable
channel. Because beneficiaries commonly watch cable television, we should consider cable as a
possible avenue for the outreach campaign.




                                               9

We conducted this survey to prepare for our outreach campaign to educate beneficiaries on
Medicare fraud and where to report it. We collected baseline data on Medicare beneficiaries’
current awareness of Medicare fraud and data on the media preferences of beneficiaries.

The survey confirms the need for a campaign to educate beneficiaries. Beneficiaries appear to be
on the right track with a large majority saying they already “always” read their EOMBs. Because
of the information provided on the EOMB, reviewing EOMB statements is the best way to detect
billing errors and potential fraud. However, the survey results suggest that beneficiaries may not
know what to look for on their EOMBs. As mentioned earlier, AARP and AoA have ongoing
activities to address this. AARP is developing materials to educate beneficiaries about how to
spot irregularities on their EOMBs. AoA has funded projects to educate beneficiaries how to
read their EOMBs. The survey also found that few beneficiaries know of the existence of a toll-
free Medicare fraud hotline number. To address this, we are working with HCFA to begin
printing the phone number for the OIG fraud hotline on EOMBs along with a message
encouraging beneficiaries to report suspected fraud and abuse.

As we prepare for the launch of the outreach campaign activities, the outreach partners (OIG,
AoA, HCFA, and AARP) should keep in mind where beneficiaries receive information. We
found that more than half of beneficiaries read AARP’s magazine, Modern Maturity, regularly or
sometimes. This makes Modern Maturity an ideal publication in which to print stories and
information about Medicare fraud. Further, because the mainstream media has a large following,
newspapers and national and local news programs may be effective avenues for certain
components of the campaign. Cable television, while not quite as popular as the mainstream
media, may also effectively reach beneficiaries and other citizens. AAFP is developing public
service announcements for broadcast media.

We plan to repeat this survey after the outreach campaign has been underway for a year or two.
This will enable us to measure the effect the outreach activities have had on Medicare
beneficiaries’ awareness of Medicare fraud.




                                                10 

1. 	   In the 11 percent, we included those beneficiaries   who also said they “don’t know” how
       often they read their EOMBs.

2. 	   Beneficiaries defined to be “knowledgeable about Medicare fraud” are those who
       answered “yes” to survey questions 19,21, or 25. See appendix A for survey questions.

3. 	   To calculate the percentage of beneficiaries who have received or have asked or looked
       for information on Medicare fraud, we added the results of survey questions 19 and 2 1.
       When a beneficiary said “yes” to both questions, we counted that response only once.
       See appendix A for survey questions.

4. 	   To calculate the percentage of beneficiaries who have received or have asked or looked
       for information on Medicare fraud from a variety of sources, we added the results of
       survey questions 20 and 2 1A. When a beneficiary said he or she received information
       from the same source for both questions, we counted that response only once. See
       appendix A for survey questions.

5. 	   To calculate the percentage of beneficiaries encountering potential fraud, we added the
       results of survey questions 14, 15a, 15b, 15c, and 18 when a beneficiary had a “yes”
       answer to one or more of the questions. Each beneficiary with more than one “yes”
       response was counted only once. See appendix A for survey questions.




                                                 11 

                                     APPENDIX                            A
                            Telephone Survey Instrument and Frequencies
                                           n=329 respondents

MEDIA OUTREACH:

1. 	    I’d like to know how often, if ever, you read certain types of publications, listen to the radio, or
        watch certain types of TV shows. How often do you                     ? Would you say regularly,
        sometimes, hardly ever, or never. (IF NECESSARY, READ SCALE FOR EACH
        QUESTION)
                                          Regularly    Some-        Hardly        Never       Don’t          Refused
                                                       times        Ever                      know


  1A. Read a newspaper                    75%           11%         5%            8%          0%             1%

  1B. Watch NATIONAL        news          80            13          3             3           0              1

  1C. Watch LOCAL news                    77            14          5                         0         ;1

  1D. Watch television talk shows          13           19          23            43          0              1
  such as Oprah, Rosie O’Donnell, or
  Gerald0

 1E. Listen to public radio shows          16           17          15            51          0         /l
 that invite listeners to call in to
 discuss current events, public issues,
 and politics


2. 	    Which of the following cable channels, if any, do you watch regularly?            Do you watch...?
        (INTERVIEWER: IF NO CABLE, ENTER NO FOR ALL)




  2A. A&E (Arts & Entertainment     Network)

  2B. The Family Channel

  2C. Lifetime                                                          65   ~4
i-- ----
I 2D. Discovery   Channel

                                                             I 40                              1             /
                                                --+
                                                             / 56       42   11                1             :




                                                      A-l
3. 	    Are there any magazines that you read regularly?
                 72- Yes (CONTINUE WITH Q3A)

                27 -    No (SKIP TO 44)

                O- Don’t Know (SKIP TO 44)

                 1-    Refused (SKIP TO 44)

3A.     Which magazines?

(DO NOT ASK) INTERVIEWER SHOULD CATEGORIZE.              SELECT ONLY ONE CATEGORY
PER MAGAZINE: Which categories do they tend to fall under?
            25- News

                23-Women’s

                54- Seniors’

                 16- Homes & Gardens

                 17- Hobbies/Crafts/Sports

                8-     Literary/Arts   & Science

                40- Entertainment/General          Interest

                8-     Nature/Environment

                8-     Health & Nutrition

                2-     Regional/Metropolitan/Local

                5-     Consumer

                3-     Business/Financial

                 19- Other



                                                       Regularly          Some-   Hardly   Never      ~ Don’t   I Refused
                                                                          times   Ever                ~ Know
                                                   c                                         -d---.

 4. How frequently do you read Modern                  36                 19      6

 Maturity, a magazine produced by AARP 

 (American Association of Retired 

 Persons)? Would you say... 

                                                   +
  5. How frequently do you read AARP’s                 30          --~I   15      8

  monthly newspaper called The Bulletin? 

  Would you say... 

                                                   -




                                                             A-2
6.   Are you employed at a regular full-time job, employed                    at a part-time job, unemployed,   retired, or a
     homemaker? 	 (RECORD ALL MENTIONS)
         6- full-time job

          5-   part-time job

          4-   unemployed

          72- retired

          1O- homemaker

          2-   “on disability”

          2-   other; specify

          0-   don’t know

          l-   refused


MEDICARE        FRAUD. INTERVIEWER         READS: Now I am going to ask you some questions about
Medicare fraud. First, I’m going to read several statements and then ask you whether you agree or
disagree with each statement. FOR PROXY RESPONDENTS              ONLY: Your answers should be about
your attitudes.

The first statement is         . AFTER INTERVIEWEE                                      RESPONDS     WITH AGREE          OR
DISAGREE, ASK: Would that by slightly or strongly?
                                                 T


                                                     Agree             Agree        Disagree
                                                     strongly          slightly     slightly


     8. 	 It’s my personal responsibility   to       85                9            2
          report suspected cases of
          Medicare fraud.

     9. 	 It’s not worth the time and effort         12                5            14          64        I5
          for me to report and pursue
          suspected health care fraud.

     10 	 If I knew more about Medicare              71                17           4           2          4
          fraud, I would be more likely to
          report it.
                                                                                                                     L


     11 	 Medicare fraud is easy to                  13                9            22
          recognize.

     12 Medicare    fraud is common.                 39               ~ 14          7           7




                                                                A-3
13. 	Are you aware of any agencies that work to reduce Medicare fraud?
                12 Yes (CONTINUE WITH Q 13A)

                 85 No (SKIP TO 414)

                 3- Don’t Know (SKIP TO Q 14)

                 l-    Refused (SKIP TO Q14)

13a. Do you remember      who they are? (RECORD ALL MENTIONS)
                 42-       federal government; General response (ASK: Which agency or department?)

                 16-       The federal government:     Medicare Program/HCFA

                 5-        The federal government:     HHS Office of the Inspector General

                 5-        The federal government:     Justice Department

                 3-        The federal government:     FBI

                 5-        State government:    General response (ASK: Which agency or department?)

                 3-        The American Hospital Association

                 37-

                 8-        Newspapers/media

                 5-        Other; please specify

                 13-       Don’t know

                 O-        Refused

INTERVIEWER           READS:     Now I’m going to ask you a few questions about your experiences    with

Medicare.   FOR PROXY RESPONDENTS:                  For these next questions, you should answer about

Mr/Mrs                    ‘s experiences   with the Medicare program.

14. 	While you have been in the Medicare program, do you think you have ever encountered         fraud?

                 13-Yes     (GO TO Q14A)

                 76-No     (SKIP TO Q15)

                 lo- Don’t Know (SKIP TO Q15)

                 l-    Refused (SKIP TO Q 15)

14A.     Can you briefly describe the fraud for me?

14B.     Did you report the fraud?
                 55-Yes (GO to Q14C)

                 43-No     (SKIP TO Q15)

                 2 _ Don’t Know (SKIP TO Q15)

                 O- Refused (SKIP TO Q 15)



                                                       A-4
14c.     Whom did you report it to? (DO NOT READ. RECORD ALL MENTIONS)
               46- The doctor or hospital that committed the fraud.

                 4-   A doctor who did not commit the fraud

                 2 l- The insurance company that processes your Medicare claims

                 4-   OIG Fraud Hotline

                 33- Medicare/ HCFA

                 17- Other (Please specify                         )

                 8 _ Don’t know

                 O- Refused

15. 	    While you have been in the Medicare program, (READ FOR EACH QUESTION) do you think
         you have ever encountered...
15A.     A doctor or other health care provider that billed Medicare for the same services or equipment
         more than once?
                 6- Yes

                 83- No

                 1l- Don’t Know

                 l-   Refused

 5B. 	   A doctor or other health care provider that billed Medicare for services or equipment you did not
         receive?
                  9- Yes

                 83-No

                 8-   Don’t Know

                 1-   Refused

15c.     Health care providers   sending you equipment that was not ordered by your doctor?
                 1- Yes

                 95- No

                 3-   Don’t Know

                 1-   Refused

16.      Has anyone offered you medical equipment and said that Medicare would pay for it, and it would
         not 	cost you anything?
                   6- Yes (CONTINUE WITH Q16A)

                 92- No (SKIP TO Q 17)

                 2-   Don’t Know (SKIP TO Q17)

                 1-   Refused (SKIP TO Q 17)

16A.     What equipment    was offered?



                                                    A-5 

16B.    How were you offered the equipment?        (DO NOT READ. RECORD ALL MENTIONS)
               1l- By telephone

                1l- By mail

                1 l- In a medical supply store

                42- Doctor or other health care provider/doctor’s     office

                26- Other

                5-    Don’t Know

                O- Refused

17. 	   Has anyone offered you free medical services or tests?
                9- Yes (CONTINUE WITH Q17A-D)

                90- No (SKIP TO Q18)

                O- Don’t Know (SKIP TO Q 18)

                1-    Refused (SKIP TO Q 18)

17A.    What service or test was offered? (DO NOT READ. RECORD ALL MENTIONS)
               21- Cholesterol

                2 l- Blood pressure

                7-    Foot care

                18- Flu shot

                57-Other

                1 l- Don’t know

                O- Refused

17B.    Where were you offered the service or test? (DO NOT READ.              RECORD ALL MENTIONS)

                7-         In a shopping mall
                7-         At a Health Fair/Expo
                21-        At a Senior Center
                14-        By telephone
                18-        By doctor or other health care provider/Dr’s   office
                39-        Other; please specify
                4          Don’t Know
                01      Refused
17c.    Did you take the service?
                57- Yes (CONTINUE          WITH Q17D)
                43-No      (SKIP TO QlS)
                O- Don’t Know (SKIP TO Q18)
                O- Refused (SKIP TO Q18)



                                                     A-6
17D.     Did you have to give your Medicare number to the person providing the free service or test?
                 38-Yes
                 38-No
                 19- Don’t Know
                 6-   Refused
18.      (IF ANSWERED YES TO 15 A-C, 16, OR 17D) Were you suspicious of any of the situations
         or 	suspect that they involved Medicare fraud?
                   43- Yes (CONTINUE WITH 18A)

                 45- No (SKIP TO Q 19)

                 9-   Don’t Know (SKIP TO Q19)

                 4-   Refused (SKIP TO Q 19)

18A.     What was the situation?



ACCESS     TO INFORMATION          ON MEDICARE        FRAUD:     INTERVIEWER        READS:   Now I’m going

to ask a few question about information    on Medicare fraud. FOR PROXY RESPONDENTS:              You

should answer these questions about your own experiences.

19. 	    Have you ever received information      on how to recognize   Medicare fraud?

                 1l- Yes (CONTINUE        WITH Q 20)

                 81-No    (SKIP TO Q 21)

                 8-   Don’t Know (SKIP TO Q2 1)

                 l-   Refused (SKIP TO 42 1)

20. 	    who provided you with information       on how to recognize   Medicare fraud? (DO NOT READ.

         RECORD ALL MENTIONS)

                 22- Medicare/ HCFA/ Medicare Handbook 


                 5-   Insurance company that processes your Medicare claims 


                 5-   Social Security office 


                 3-   Doctor or other health care provider/Doctor’s    office 


                 3-   Local senior center or seniors’ group 


                 8-   TV 


                 5-   Radio programs 


                 22- AARP

                 1l- Newspaper 


                 19- Other; please specify 




                                                      A-7
                 16- Don’t Know

                 3-   Refused

21. 	    Have you ever asked about or looked for information       concerning     Medicare fraud?

                 5-   Yes (CONTINUE        WITH Q21A AND SKIP 422)

                 93- No (SKIP TO 422)

                 1-   Don’t Know (SKIP TO 422)

                 1-   Refused (SKIP TO 422)

21A. 	   Where did you ask about or look for information        about Medicare fraud? (DO NOT READ

         LIST. RECORD ALL MENTIONS.)

                 19- Medicare /HCFA/ Medicare Handbook 


                 13- Medical claims statements 


                 6-   Insurance company that processes your Medicare claims 


                 6-   Consumer organizations 


                 6-   Doctor or other health 
 care provider/Doctor’s    office

                 13-TV 


                 6-   Radio programs 


                 19-AARP 


                 3 8- Newspapers 


                 19- Magazines 


                 6-   Other; please specify 


                 6-   Don’t Know 


                 O- Refused 


22. 	    Where would you be most likely to look for information         about Medicare fraud?

         (DO NOT READ.          RECORD ALL MENTIONS.)

                 lo- Medicare/ HCFA/ Medicare Handbook 


                 1l- Medical claims statements 


                 3-   Insurance company that processes your Medicare claims 


                 1    Insurance company that issues your supplemental         (Medigap) policy 


                 1-   Consumer organizations 


                 2-   Government     agencies-general 


                 8_    Social Security office 


                 7-   Doctor or other health care provider/Doctor’s      office/Hospital 



                                                          A-8
                1-    Phone book/Yellow       pages

                2-    Local senior center or seniors’ group

                5-    TV

                2-    Radio programs

                6-AARP

                1-    Internet or World Wide Web

                8-    Newspapers

                4-    Library

                4-    Magazines

                3-    Other; please specify

                37- Don’t Know

                3-    Refused

                2-    I would not look for information

23. 	   If you encountered      health care fraud in the Medicare program, whom would you contact? (DO

        NOT READ. RECORD ALL MENTIONS.)

                9-    The doctor or hospital that committed      the fraud.

                3-    A doctor who did not commit the fraud

                1O- The insurance company that processes your Medicare claims 


                3-    The insurance company that issues your supplemental          (Medigap) policy 


                1-    OIG Fraud Hotline

                27- Medicare/ HCFA

                1AARP
                 -
                1l- Social Security Office

                l-    Police

                3-    Attorney general or district attorney 


                3-    Congressperson     or other elected representative 


                5-    Other Government      agency    (other than those listed above) 


                 1-   Phone number on EOMB 


                2-    Other (Please specify                                  )


                29- Don’t know/ I would not know who to call 


                2-    Refused 





                                                       A-9
24. 	   Would you be reluctant to report suspected Medicare fraud?

                1l- Yes (CONTINUE         WITH Q24A)

                85-No      (SKIP TO Q25)

                3-   Don’t Know (SKIP TO 425)

                2-   Refused (SKIP TO Q25)

24A.    What would make you reluctant to report fraud? (DO NOT READ.           RECORD ALL

        MENTIONS.)

                9-   I would lose my benefits

                1l- My doctor might get in trouble

                6-   I’m not sure what fraud is

                9-   I don’t know whom to contact

                3-   I don’t have the time

                6-   It’s not worth the effort

                20- Would want to be sure it is fraud

                9-   Concerned    about retaliation   from doctor

                14- Don’t want to get involved

                14-Other

                1l- Don’t know

                6-   Refused

25.     Are you aware there is a toll free hotline to report Medicare fraud?
                13- Yes (CONTINUE WITH Q26)

                83- No (SKIP TO 43 1)

                2-   Don’t Know (SKIP TO 43 1)

                l-   Refused (SKIP TO 43 1)

26.     How did you hear about the hotline? (RECORD ALL MENTIONS)

                16- Medicare/ HCFA/ Medicare Handbook

                12- Medical claims statements

                9-   Insurance company that processes your Medicare claims

                2-   Social Security office

                2-   Doctor or other health care provider/Doctor’s   office

                2-   Local senior center or seniors’ group

                14-TV



                                                      A- 10
              14-AARP

              5-   Friend/family   member

              2-   Magazine

              12- Newspaper

              9-   Other

              12- Don’t Know/Don’t Remember

              O- Refused

27.   Did you ever call the hotline?

              12- Yes (CONTINUE        WITH 428)

              86 No (SKIP TO 43 1)

              O- Don’t Know (SKIP TO 43 1)

              2- Refused (SKIP TO 43 1)

28.   Were the recorded message and instructions   on the hotline understandable?

              60-Yes

              O- No

              40- Don’t Know/ Don’t remember

              O- Refused

29.   Was the operator courteous?

              100 Yes

              O- No

              O- Don’t Know/ Don’t remember

              O- Refused

30.   How satisfied were you with the how your call was handled?       Would you say you were very

      satisfied, somewhat satisfied, somewhat unsatisfied,   or very unsatisfied?

              60- Very satisfied

              20- Somewhat satisfied

              O-   Somewhat unsatisfied

              0    Very unsatisfied

              20- Don’t Know/ Don’t remember

              0-   Refused




                                                A- 11
MEDICARE         EOMBs: 


INTERVIEWER              READS: Now I am going to ask questions about your experiences          with Medicare 


claims and your Explanation          of Medicare Benefits Statements (EOMB), that is the statements that 


Medicare     sends out after a claim is filed. FOR PROXY RESPONDENTS                   ONLY:    These next 


questions should be answered about your experiences               with Mr/Mrs                ‘s Medicare claims and 


statements. 


31.        How frequently     do you read your Explanation        of Medicare Benefits Statement?   Would you say 


           always, 	 sometimes,     hardly ever, or never?

                    74- Always

                    13- Sometimes

                    4-    Hardly ever

                    4-    Never

                    3-    Don’t Know

                    2-    Refused

32.        Does anyone else, such as a family member, friend, or professional,         also read these Explanation
           Of 	Medicare Benefits statements?
                   44-Yes (CONTINUE WITH Q32A)

                    50-No     (SKIP TO 433)

                    4.    Don’t Know (SKIP TO 433)

                    2-    Refused (SKIP TO 433)

32A. 	 Who is that person? (RECORD ALL MENTIONS)

                    70- spouse

                    18- son/daughter

                    1-    parent

                    l-    doctor

                    2     friend

                    7     other

                    O- don’t know

                    1-    refused




                                                             A-   12
33. 	   Do you read anyone else’s Explanation        Of Medicare Benefits?

                36-Yes        (GO TO 33A)

                62- No (GO TO 34)

                O- Don’t Know (GO TO 34)

                2-    Refused (GO TO 34)

33A.    Whose do you read? (RECORD ALL MENTIONS)

                13-my     own

                69- spouse

                6-    parent

                5-    friend

                3-    sibling

                9-    other relative

                6-    other

                O- don’t know

                O- refused

34. 	   If your Explanation     of Medicare Benefits Statement showed that Medicare had paid for services

        or products you did not receive, whom would you contact?             (DO NOT READ.    RECORD ALL

        MENTIONS.)
                26- The doctor or hospital that billed for the services or products

                2-    A doctor who did NOT bill for the services or products

                12- The insurance company that processes your Medicare claims

                2-    The insurance company that issues your supplemental         (Medigap) policy

                8-    OIG Fraud Hotline

                28- Medicare/ HCFA

                2-    I would consult a family member or a close friend 


                6-    Social Security Office 


                 1-   Attorney general or district attorney 


                2-    Other Government      agency   (other than those listed above) 


                2-    Phone number on EOMB 


                2-    Other (Please specify                             )


                2 l- Don’t know/ I would not know who to call/contact 


                 1-   Refused 



                                                      A-   13
DEMOGRAPHIC           INFORMATION 


INTERVIEWER           READS:      Finally, I’d like to ask a few questions for statistical purposes only. As I 


said earlier, your answers will be completely      confidential.   FOR PROXY RESPONDENTS              ONLY: 


These next questions should be answered about MrlMrs. 


35.     What is the highest level of education you completed?

                 19- completed      less than 9* grade

                 8-    up to and through 11” grade

                 34-high    school graduate

                 17- Some College

                 3-    Associates Degree

                 9-    Bachelors Degree

                 O- Some Graduate School

                 8-    Graduate or Professional    Degree

                 l-    Don’t Know

                 2-    Refused

36.     How would you describe your racial or ethnic background?

                 866 White/Caucasian

                 5-    Black/African    American

                 0.3 Asian or Pacific Islander (1 beneficiary)

                 3-    Hispanic

                 0.6 Native American or Alaskan Native (2 beneficiaries)

                 1-    Other--please    specify

                 1-    Don’t Know

                 3     Refused

37.     What year were you born in?

                 -	    don’t know

                       refused




                                                         A-   14
38.   What is your current marital status?          (IF NECESSARY,       Are you now married, widowed,

      divorced,        separated, single, or living as married?)

                  59- Married

                  27- Widowed

                  5-     Divorced

                  O- Separated

                  6-     Single

                  0-     Living as married

                  O- Don’t Know

                  l-     Refused

39.   What type of residence do you live in?

                  90- Private Home/Private       Apartment

                  4-     Congregate   Senior Housing (assisted living, senior apartment building, retirement

                  community)

                  4-     Nursing Home (IF YES, SKIP TO 441)

                  O- Other

                  O- Don’t Know

                  2-     Refused

40.   Do you live alone, (just with your spouse/partner),          or do you (and your spouse/partner)   live with

      other people?

                  29- Alone

                  53- Just with Spouse/Partner

                  7-     With Spouse/Partner    and Others

                  8-     Live with Others (includes living with grown children)

                  O- Don’t know

                  3-     Refused




                                                        A- 15
41.     How would you rate your health?           Would you rate it as excellent,     good, fair, or poor?

                    2 l- Excellent

                    36- Good

                    3 l- Fair

                    1 l- Poor

                    0-   Don’t Know

                    2-   Refused

42.     And finally, approximately         what is your total annual family income before taxes --just tell me

        when I get to the right category.       (READ)

                    18- Less than $10,000

                    255 $10,000 to under $20,000

                    18- $20,000 to under $30,000

                    1l- $30,000 to under $40,000

                    7-   $40,000 to under $60,000

                    5-   $60,000 to under $100,000

                    2-   $100,000 or more

                    5-   Don’t know

                    1O- Refused

(NOTE TO INTERVIEWER:                 If respondent     is a proxy, continue with Q43. If there is no proxy,

END THE SURVEY.)

FOR PROXY RESPONDENTS                     ONLY.       INTERVIEWER        READS:     Finally, I want to ask you just a

few questions about yourself.

43.     What is your relationship         to Mr/Mrs                (the Medicare beneficiary)?   (i.e., are you

        his/her 	                     ?

                    48- Spouse

                    19- Child

                    25- Other Family Member

                    4-   Friend

                    4-   Other

                    O- Don’t know

                    0    Refused




                                                         A-   16
44.   About how often do you see or talk to Mr/Mrs.           (the Medicare beneficiary)?

              67- Daily

              19- Several times a week

              6-   Once a week

              4-   Twice a month

              4-   Monthly

              O- Less than monthly

              O- Don’t know

              O- Refused

45.   What is the highest level of education you completed?

              13- through 8th grade

              6-   through 1lth grade

              19- high school graduate

              3 l- Some College

              O- Associates Degree

              2 l- Bachelors Degree

              2-   Some Graduate School

              4-   Graduate or Professional   Degree

              0-   Don’t Know

              4-   Refused

46.   And finally, what year were you born in?

              -    Don’t Know

                   Refused

47.   Proxy’s gender

              40- Male
              60- Female




                                                 A- 17
                                                        Baseline Statistics


The following tables show the point estimates and 95 percent confidence             intervals for selected
baseline statistics that will be tracked over time.


 Baseline Statistic                                                   Point                 95%
                                                                     Estimate       confidence interval

 Percent of Medicare beneficiaries             who                     74%              69% - 79%
 always read their EOMBs

 Percent of Medicare beneficiaries             who
 are knowledgeable          about fraud                                23%               19% - 28%
 (“knowledgeable”    defined as answering “yes” to
 survey questions   19, 21, or 25)
                                                   -.

 Percent of beneficiaries            who are not
 aware of any agencies that work to                                    88%              84% - 91%
 reduce Medicare fraud

 Percent of beneficiaries            who do not                                 I
 know there is a toll-free hotline to                                  86%              82% - 89%
 report Medicare fraud

 Of Medicare beneficiaries             who say                         55%              40% - 69%
 they have encountered           potential fraud,
 Jercent who reported it.




                                                               B-l
                                          APPENDIX                           C
                                  Confidence   Intervals     for Selected    Statistics


In addition to the baseline statistics shown in appendix B, the following table shows the point estimates
and 95 percent confidence     intervals for other selected statistics in the order they appear in the report.



  Statistic                                                                            Point            95% confidence
                                                                                      estimate c            interval

  Percent of Medicare beneficiaries       who agree that Medicare fraud is                53%             48% - 58%
  common                                                                                        -c

  Percent of Medicare beneficiaries       who agree with the statement “It                94%             91% - 96%
  is my personal responsibility      to report suspected cases of Medicare
  fraud.”                                                                         L             c


  Percent of beneficiaries   who agree with the statement, “It’s not                      17%             13% - 21%
  worth the time and effort for me to report and pursue suspected
  health care fraud.”                                                  ..-        L             L


  Of beneficiaries    who always read their EOMBs, percent who are                        28%             23% - 34%
  knowledgeable      about fraud     --                                           L             L


  Of beneficiaries    who sometimes read their EOMBs, percent who are                     16%              5% - 27%
  knowledgeable      about fraud                 -                 -                            L


  Of beneficiaries    who hardly ever or never read their EOMBs, or                       3%               O%-8%
  who did not know how often they read their EOMBs, percent who
  are knowledgeable     about fraud

  Percent of beneficiaries   who disagree with the statement, “Medicare                   58%       i     53%- 64%
  fraud is easy to recognize.”
                                                                                  c

  Percent of beneficiaries   who “don’t know” whether they agree or                       19%              14% - 23%
  disagree with the statement, “Medicare fraud is easy to recognize.”
                                                                                  L


  Percent of beneficiaries   who have received or looked for                              15%       ~      11% - 18%
  information   on Medicare fraud (answered “yes” to questions 19 or
  21)

  Percent of beneficiaries   who say that they have encountered 
                         19%              15% - 23%
  potential Medicare     fraud (answered “yes” to questions 14, 15a, 15b, 

  or 18) 
                    -                                                                 c

  Percent of beneficiaries   who have encountered      a doctor or other                  10%              7% - 13%
  health care provider that billed Medicare for services or equipment
  they did not receive (based on answers to questions 14a and 15b)


                                                           C-l
Statistic                                                                                     Point                   95% confidence
                                                                                             estimate                     interval
                            --
Percent of beneficiaries         who have encountered    a doctor or other                          OO                   4%-9%
health care provider that billed Medicare for the same services or
equipment     more than once (based on answers to questions 14a and                     1
15a)
                                                                                        ~     .;;                 m
                                                                                                    0
Of beneficiaries    with both (1) an education beyond high school and                   j               0               24% - 49%
(2) “fair” or “poor” health, percent that encountered           potential fraud         ’

Of beneficiaries    with both (1) an education beyond high school and                          18%                      10% - 27%
(2) “excellent”    or “good” health, percent that encountered         potential
fraud

Of beneficiaries    with both (1) high school education or less and (2)                        13%                       5% - 20%
“fair” or “poor” health, percent that encountered         potential fraud                                   -..
Of beneficiaries    with both (1) high school education or less and (2)                        15%                       8% - 21%
“excellent”   or “good” health, percent that encountered          potential
fraud

Percent of beneficiaries         who say they would not be reluctant to           --    1      85%. -81y/u--­
report Medicare     fraud
                                                                                                                  4--
Percent of beneficiaries         who “don’t know” whom they would                        :     29%                 ~    24% - 34%
                                                                                         )
contact if they encountered         Medicare fraud.                                    -.                         I
Percent of beneficiaries         who would contact their health care                           26%                      22% - 31%
provider if they suspected errors on their EOMBs

Percent of beneficiaries         who would contact their health care                           9%                        6% - 12%
provider if they encountered         fraud                                    +                                                      -.
Percent of Medicare beneficiaries            who agree that if they knew more           ~      89%                I     85% - 92%
about Medicare      fraud. thev would be more likelv to renort it.




                                                          c-2
                                Analysis of Respondents Versus Non-respondents


We compared survey respondents            with both survey non-respondents         and the population     of Medicare 

fee-for-service     beneficiaries   using the following four variables: (1) age the beneficiary          attained during 

1996; (2) gender of the beneficiary;        (3) race of the beneficiary;      and (4) total amount Medicare paid 

during 1996 on behalf of the beneficiary.            We found that respondents      differed from non-respondents         by 

age and race but not by gender or total Medicare payment.               Similarly, we found that the respondents 

were representative       of the fee-for-service    Medicare population       by gender and payment category but 

were not entirely representative       by age and race. 



In the tables in this appendix, the “All fee-for-service          Medicare beneficiaries”    column displays 

statistics that we calculated from a l-percent sample of Medicare claims for services provided during 

calendar year 1996. In calculating these statistics, we excluded beneficiaries              who died during 1996. In 

these tables, the sums of individual percents may not exactly equal 100 percent because of rounding. 



ANALYSIS BY AGE
While the difference between respondents             and non-respondents      in the average (mean) age was not
statistically   significant, the difference by age group was significant.          The under-65 and 85-and-older
age groups are under-represented         among the respondents,       while the age 65 to 75 group is over-
represented.
                                Respondents vs. non-respondents by average age

                                                                                         All fee-for-service
                                         Respondents          Non-respondents
                                                                                       Medicare beneficiaries
                                           N=329                    N = 296
                                                                                            N = 298,970
       .El
          Average age                        72.7                     70.9                       72.4
          (standard error)                   (O-5)                    (0.8)                     (0.02)


T-test for respondents      vs. non-respondents      by average age (not statistically significant at the 95 percent
confidence      level):
         t = 1.907
          degrees of freedom = 504.5
         prob>ltl = 0.0571



                                                            D-l
                              Respondents vs. non-respondents by age group


       m                            Respondents       Non-respondents         ~~~~~~~ref.~~~es


                                        7.3%                  19.3%                        11.6%

                                       52.9%                  40.9%                     45.0%

                                       31.9%                  27.0%                        32.2%

                                       7.9%                   12.8%                        11.2%


Chi-square for respondents    vs. non-respondents   by age group (statistically    significant):
        chi-square = 26.928
        degrees of freedom = 3
        prob>chi-square   = 0.001


ANALYSIS BY RACE
Respondents   differed significantly   from non-respondents     by race. As shown in the table below,
respondents   who were white were over-represented      among respondents.


                                Respondents vs. non-respondents by race

                                                                                  All fee-for-service
                                    Respondents       Non-respondents
                                                                              Medicare beneficiaries

                                       92.1%                  82.7%                      86.9%

                                       7.9%                   17.3%                        13.1%


Chi-square for respondents    vs. non-respondents   by race (statistically significant):
        chi-square = 12.666
        degrees of freedom = 1
        prob>chi-square   = 0.001




                                                     D-2 

ANALYSIS BY GENDER
Respondents       did not differ significantly    from non-respondents          by gender, as shown in the table
below.
                                    Respondents vs. non-respondents by gender



                                   II     Respondents
                                                           I
                                                                Non -respondents
                                                                                      I     All fee-for-service
                                                                                          Medicare beneficiaries     II

         IIMale                    II        41.9%         I           41.2%          I           40.7%

         IIFemale                  II        58.1%         I           58.8%                      59.3%


Chi-square for respondents         vs. non-respondents     by gender (not statistically significant):
         chi-square = 0.034
         degrees of freedom = 1
         prob>chi-square        = 0.854


ANALYSIS BY 1996 TOTAL MEDICARE PAYMENT
Respondents       did not differ significantly    from non-respondents          by average Medicare payment (1996
total payment per beneficiary),         as shown in the tables below.          In addition to comparing    average
payments,     we compared respondents         with non-respondents        by payment categories, and we did not find
any significant differences.       An example of this comparison           by payment category is shown in the
second table below.


                       Respondents vs. non-respondents by average Medicare payment



          p                                _ Respondents           Non-respondents           A1>~~~ce 




          Average (mean) 1996                    $4,644                  $5,788                     $4,609 

          Medicare payment 

          (standard error)                       ($724)                  ($865)                      ($20) 



T-test for respondents      vs. non-respondents      by average Medicare payment (not statistically significant):
         t = -1.0142
         degrees of freedom = 59 1.8
         prob+l     = 0.3 109




                                                               D-3 

                   Respondents vs. non-respondents by Medicare payment category


        (1                            Respondents     Non-respondents       ~~~~~~~~>~~~~es            -


          Less than $10,000
                                         86.3%                85.1%                 87.4%


          $10.000 or more                13.7%                14.9%                 12.6%


Chi-square for respondents     vs. non-respondents   by Medicare payment category (not statistically
significant):
         chi-square = 0.180
         degrees of freedom = 1
         prob>chi-square    = 0.672




                                                      D-4 

